                                              NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

11   Case Number: A01110044
                                                                           11         Page 1of 1


           The complainantl-the president of a small business t h a t conducts materials
           research-mailed     us in Nov 2001 to relate his concerns about NSF-funded
           researchers who, he believed, might be stealing his ideas. The complainant believes
           he has developed a potentially unique technique useful to the materials research
           community. He was unaware of which research groups, if any, were conducting
           closely related research. He wrote to several researchers in the field (including R1,2
           and R23) to ask about their research and if they could identify which other groups, if
           any, were working on that technology.

           He ostensibly sent R1 and R2 a proposal for research with unpublished data after
           they agreed to sign a confidentiality agreement. After receiving the complainant's
           proposals, neither R1 nor R2 agreed to collaborate with him, and he requested the
           return of his proposals. R1 did not return his proposal, claiming he lost it. R2
           purportedly returned her proposal unopened (although the complainant believes she
           may have read his proposal), claiming she was independently working on t h a t topic
           and did not want to have a potential conflict of interests. Because of the actions of
           R1 and R2, the complainant became suspicious t h a t they may be planning to use his
           research ideas as their own; however, he has no indication t h a t they have done so
           yet. As suspicious a s the complainant may view Rl's and R2's actions, without
           evidence of intellectual theft, this case is closed, and no further action will be taken.




              1 (footnote redacted).
              2 (footnote redacted).
              3 (footnote redacted).



                               Agent            Attorney             Supervisor               AIGI

     ' Sign / date
